 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERAL





   MEDICAID CREDIT BALANCES
NURSING FACILITY PATIENT ACCOUNTS




           .. stRVICtn


                         Richard P. Kusserow
                         INSPECfOR GENERA
      '0



           lfcl.a            OEI-07-90-011
               EXECUTIVE SUMMAR 

PUROSE
The purpose of this national inspection is to determine the dollar amount of Medicaid
credit balances that exist at Medicaid- participating nursing facilities , and the time used
by nursing facilities and State Medicaid agencies in reporting and adjusting credit
balances.

BACKGROUN
Whenever a Medicaid payment is made to a provider (e. , nursing facility) in excess
of the amount of payment that is due , a credit balance is created. The nursing
facilities , as well as the State Medicaid agencies , have a responsibility to resolve these
credit balances.

In a previous orG review of hospitals conducted in 1989 , we found substantial
amounts of Medicaid credit balances in hospitals. The Medicaid credit balances in the
five sampled States projected to a total of $16 milion ($8 970 198 federal share). The
review allowed the Health Care Financing Administration (HCFA) to pursue and
recover most of the overpayments. This earlier review suggested a potential also for
Medicaid credit balances in nursing facilities nationwide.

METHODOLOGY

We selected a random sample of 50 nursing facilties in two stages. In the first stage
five States were sampled. Subsequently, 10 nursing facilities were sampled within each
State for an on-site examination of patient account records.

We requested the 50 nursing facilties to provide a listing of all credit balances as of
March 31 , 1990. We determed the existence of an actual credit balance based upon
a review of the patient ledgers maintained at the facilty. Our review determined the
amount of the credit balance , the date the nursing facilty notifed the State agency of
the existence of the credit balance , and the length of time it took the State agency to
adjust the amount of the credit balance.

FIINGS
Projecte Medaid Cred     Balaes                  We estimate nationwide that
                                       are Substantl

overdue credit balances could be as much as $32 miion ($18 miion federal share)           as
of March 31 , 1990.

Cred Balaes Are Not Report          Tily   Ten milion dollars in identifi ed Medicaid
credit balances were not reported after 1 year had elapsed (as of March 31 , 1990).
State Medaid   Agen Are Not Adjustig Cred         Balances Tunly        Fifty-six percent of
the Medicaid credit balances were not adjusted by the State Medicaid agencies within
60 days of notice by the nursing   facilities.

RECOMMATIONS
The HCF A Should:

      Encourage State Medicaid Agencies to Take Action to Adjust Credit Balances;

      Require State Medicaid Agencies to Timely Process Adjustment of Credit
      Balances;

      Work With State Medicaid Agencies to Increase the Awareness of Program
      Providers to Timely Identify and Report Credit Balances; and

      Seek Legislation to Penalie     Providers which   Do Not Timely Report Credit
      Balances.

AGENCY COMMNf

The HCF A concurred with our recommendations to encourage State Medicaid
agencies to take action to adjust credit balances and to require State agencies to
process adjustments in a timely manner. The HCF A identified actions it is taking
towards these ends. The HCF A also agreed with our overall recommendation to work
with State Medicaid agencies to increase the awareness of program providers to
identif and report credit balances in a timely manner, and identifed actions it is
takg to address this.
However, HCF A disagreed with our recommendation to penalize providers who do
not timely report credit balances because they deal priarily       with States   rather than
with individual providers. We have elected to retain this recommendation since
believe that a penalty placed on program providers would be a potent incentive to
report credit balances , and there are ways HCF A can achieve this through the States.

Finally, the HCF A questioned the accuracy of our savigs estimate. While we agree
  at our estimate has a wide confdence interval, there is no doubt that the problem of
credit balances is serious and warrants enhanced action to collect them.
                          INTRODUCTION

PUROSE
The purpose of this national inspection is to determine the dollar amount of Medicaid
credit balances that exist at Medicaid- participating nursing facilties , and the time used
by nursing facilties and State Medicaid agencies in reporting and adjusting credit
balances.
BACKGROUN
The Social Security Act , Section 1903 (a)(13)(A) provides for payments to eligible
nursing facilties for patients certifed by physicians as needing that level of medical
care. Whenever such a payment for servces is made to a Medicaid provider and , for
various reasons the payment is in excess of the correct payment amount , a credit
balance exists and monies are due back to that State Medicaid program. Also , at least
half or more of these monies are federal financial participation dollars , monies from
the federal government used to assist or match State Medicaid dollars. This is called
the federal share of the credit balance.

When credit balances are created , certain responsibilties rest with the nursing facilities
and the State Medicaid agencies. Even though a formal time frame does not exist , the
nursing facilties must notif the State Medicaid agency of credit balances in
accordance with the Social Security Act , Section 1903 (d). Subsequently, the
Consolidated Omnibus Budget Reconcilation Act of 1985 (Public Law 99- 272)
requires the State Medicaid   agency/fiscal agent to adjust future
                                                                nursing facilty
payments in the amount of the credit balances    within 60 days.
A prior OIG inspection of Medicaid credit balances in hospital inpatient accounts
identified large credit balances. In March 1989 , an OIG national report
(#OEI- 07- 88- 00470) noted that projected credit balances in the five States reviewed
were $16 369 967 ($8 970 198 federal share). If simar problems existed in all States
the projected Medicaid credit balances could equal as much as $34 104 098
($20 663 673 federal share). The report also indicated that the hospitals were not
reporting credit balances timely or not reporting credit balances at all. The OIG
found that the hospitals ' procedures should enable them to make notification of a
credit balance withi 45 days of the date the balance occurred. Ths review suggested
a potential for Medicaid credit balances in nursing facilties nationwide.
METHODOLOGY
We selected a random sample of nursing facilities from the universe of all Medicaid-
participating nursing facilties using a modified Rao , Hartly, Cochran method. A two
stage cluster sample was selected where States were chosen in the fist stage with
probabilty proportionate to size. These States are: Californa , Florida, Missouri
Pennsylvania , and Wisconsin.
In the second stage , a simple random sample of nursing facilties within each State was
selected. In each State , 10 nursing facilties were chosen for review. One nursing
facilty was out of business , however, at the time our site visit was made , making a
total of 49 nursing facilities.
We requested each nursing facility in the sample to provide the OIG with listings of
outstanding Medicaid credit balances as of March 31 , 1990 for our review. If there
were no credit balances identified by the facility, all patient balances as of March 31
1990 were examined.
We determined the existence of an actual credit balance based upon a review of the
patient ledgers and other documentation maintained at the facility. To ensure validity
of the credit balances, we requested the facilities to veri the existence of each credit
balance and credit balance amount. Our review determined the amount of the credit
balance , the period of time it took the nursing facilty to notify the State Medicaid
agency of the existence of the credit balance , and the length of time it took the State
Medicaid agency to adjust its payments for the amount of the credit balance.
We conducted a subsequent review several months later of al the nursing facilties
which had outstanding credit balances at the time of our site visits. Ths follow-up
review was performed to veri dollar amounts and the current disposition of the
credit balances. We also determned which nursing facilties stil had not reported
those credit balances to appropriate State Medicaid agencies.
                                         FINDINGS

Project Medaid Cred Balances are Substantl
Projecting the amount of Medicaid credit balances for each sampled State to all
Medicaid- participating nursing facilities in each State resulted in total estimated credit
balances overdue in the five States of approximately $8 millon ($4 mion federal
share). Assuming all conditions relative to the five States exist in the other States , the
projected credit balances to the Medicaid program could be as much as $32 millon
nationally ($18 milion federal         share)iSee Appendix    As discussed in the next
finding, we defie      a balance
                              as overdue if it was outstanding after 45 days.
Cred Balances Are Not Report                Tunly
Based upon inormation from nursing facility personnel that they reconcile balances
monthly and allowing 15 days afterwards to report credit balances , we believe 45 days
is a reasonable time frame for reporting credit balances to the State Medicaid
agencies. We found that 135 of the 416 credit balances in our sample were reported
after 45 days , but before 1 year had elapsed. Less than one- fifth (73 of the 416) were
reported timely, according to our definition.
One-half of the credit balances due back to the State Medicaid agencies (208) had not
been reported after 1 year had elapsed. The national projection for these credit
balances is $10 miion  ($5.      6 milion federal share)
                                                       Appendix B
                                                             iSee
When asked why these credit balances were not reported timely, tyical comments
from staff at nursing facilities were:
           We are only concerned with debit balances.
            Resolvig credit balances is of lesser priority than other business and
           administrative operations.
Only half (208 of 416) of the credit balances were reported to the State Medicaid
agencies     iSee   Appendix C
As par of our follow-up review, we determined that 95 percent (197 of 208) of the
credit balances outstanding at the time of our on-site review remained outstanding
over 6 months later.
In only one State reviewed (Pennsylvania) was there an established State Medicaid
agency incentive to timely report and resolve Medicaid credit balances. In that State,
if the State does not resolve the credit balances withi 180 days , the nursing facilties
must go through a more stringent credit balance verication process to determine
credit balance delinquency. This takes a much greater expenditure of nursing facility
staf hours than if the credits had been reported timely.
State Medaid   Agen Are Not Adjusg Cred Balances Tily
The review showed that 56 percent (116 of 208) of the Medicaid credit balances
reported were not adjusted by the State Medicaid agencies withi 60 days of notice by
the nursing facilty 
 See Appendix Ct. In various instances , the State . Medicaid
agencies were not always in compliance with the 60- day provision of the Consolidated
Omnbus Budget Reconciliation Act of 1985.
                    RECOMMENDATIONS

Th   HCF A Shoul Encourage State Medaid        Agen to Take Actin to Adjust Credit
Balances
The HCF A should instruct State Medicaid agencies to adjust actual credit balance
amounts identifed by this inspection and to adjust credit balances on an ongoing basis.
Nationally, the projected Medicaid program overdue credit balances could be as much
as $32 millon ($18 milion federal share) fSee     AppendixAr.
Th   HCFA Shoul Reqe State Medaid Agen To 1'ly Process Adjustmnt of
Cred Balances
The HCF A should require State Medicaid agencies to adhere to the Consolidated
Omnibus Budget Reconcilation Act provision (Section 9512) requiring States to adjust
any outstanding Medicaid credit balances within 60 days after notification by the
nursing facilty that a credit balance exists.
Th   HCF A Shoul Work Wih State Medaid                       to Incease the Awarens of
Progam Provi to Tunly                       Cred Balances
                             Ide and ReportAgen
The HCFA should work with State Medicaid agencies to emphasize to providers that
credit balances should be reported within a reasonable time.
Efforts to encourage provider awareness could include newsletters ,      trainng sessions ,   or
on-site visits and/or reviews that establish a priority emphasis to this provider
responsibilty. The HCF A might also consider assessing interest on the       federal share
of credit balances not reported within a reasonable time.
Th   HCFA Shoul Seek Lelatin To          Pen Provi whih Do Not Tunly Report
Cred Balances
The HCF A should seek legislation that would impose a penalty on program providers
for failing to timely identify and report credit balances.
                    AGENCY COMMENTS

The HCF A concurred with our recommendations to encourage State Medicaid
agencies to take action to adjust credit balances and to require State agencies to
process adjustments in a timely manner. The HCF A has issued a memorandum to all
HCF A regional offces to direct State Medicaid agencies to identif and adjust
credit balances on a continuing basis , and to adhere to the requirements outlined in
section 9512 of COBRA.
The HCFA also agreed with our overall recommendation to work with State Medicaid
agencies to increase the awareness of program providers to identify and report credit
balances in a timely manner, and identifed actions it is taking to achieve this.
However, HCFA disagreed with our specifc suggestion to consider assessing interest
against State agencies on the federal share of credit balances not reported within a
reasonable tie.   HCF A disagreed with this suggestion because it is lited by statute
in assessing interest against Medicaid State agencies. Nevertheless , we believe this
approach has merit and hope HCF A will consider it again as part of an overall
strategy to increase State efforts in this area.
The HCF A also disagreed with our recommendation to penalie providers which do
not report credit balances in a timely manner, because their role deals priarily with
States rather than with individual providers. We have elected to retain this
recommendation in our fial report since our fidings demonstrate a potent incentive
is needed to report credit balances , and we believe that a penalty placed on program
providers would serve this purpose. In addressing this , we believe that HCF A could
develop a legislative proposal to require State agencies to assess penalties against
providers and fulf the intent of our recommendation while remaing sensitive to the
federal- State Medicaid partnership.
Finally, the HCF A questioned the accuracy of our savings estimate. Whe we agree
that our estimate has a wide confdence interval , there is no doubt that the problem of
credit balances is serious and warrants enhanced action to collect them.
                           APPENDIX A

      ESTITED            STATE AN      NATIONAL         CRIT BALCE
                *NFs in    NFs with               Average      Total Proj ected
ST.             sample     Cr. Bal.               Per NF         Dollars Found
                                                  $1829.         $2, 051 183.
                                                  $6636.            152 560.
                                                  $3830.            992 073.
                                                  $1762.         $1, 052 319.
                                                  $2406.            495 825.
                                          5 state Projection        743 963.
                           MEDICAID FEDERAL          SHA
                *NFs in    NFs wi th              Average      Total proj ected
ST.             sample     Cr. Bal.               Per NF         Dollars Found
                                                     914.        $1, 025, 591.
                                                  $3, 630.          724 450.
                                                  $2, 266.          587 109.
                                                  $1, 002.          598 299.
                                                  $1, 426.          293 924.
                                5 state federal share               229, 375.
                                         Medicaid               Federal share
National Estimate Total                  $31, 714, 546           $17 719, 932
90% Confidence interval

(lower)                                  $10, 803, 369           $10 468, 699
(upper)                                  $52, 625 723            $24, 971 165
*Nursing facility

                            APPENDIX
          CRDIT             BALCE   UNY          REPORTE
                  # of Credit

                  Bal' s Not Reported $ Amt. of             Avq. Amt. per
state             wi thin    45
                             days     Credi t Bal.      s   Credit Bal.
                                          $10, 029                  343
                                          $34 452                   499
                                          $11, 648                  431
                                          $12, 043                  860
                                          $12, 448                  566
Total                 135                 $80, 620                  597
                  # of Credit
                  Bal' s Not Reported     $ Amt. of         Avq. Amt. per
state             after 1 yr. period      Credit Bal.       Credit Bal.
                                          $ 5, 224                  373
                    102                   $22, 865                  224
                                          $16 534                   204
                                          $ 2, 497                  416
                                          $ 3, 981                  796
Total               208                   $51, 101                  246
Medicaid National Estimate: $9, 983, 152 ($5, 571, 365 fed. share)
     for the 208 credit balances which were not reported until
     after one year had elapsed.
          90% Confidence interval (lower)              $ 1 868 111
                                  (upper)              $18, 098 193
                          APPENDIX C

           UNLY          ADmSTMNT BY STATE AGENCIE
        # of         # of      # of           $ Amt.                   $ Amt.
        Credi t      Notices   Adjust.        of Adj.      Adjust.     of Adj.
ST.     Balances     issued     60             60           60          60
                                                                       $11 244
               187                             $15, 267                $27 923
               126                             $11, 876                $ 9, 893
                                               $ 6   029               $ 9   326
                                               $11, 589                $ 9   620
TOTAL          416      208                    $44 761           116   $68 006
                                     C - 1

                         I - a





SlawOJ   NOlL    SINav       DNIJNVNId   ffJ HL'I
                G XIGN3ddV

                                                                                     Healtn I.are
           DEPARTMENT OF HEALTH &. HUMAN SERVICES                                    Financing Administration

                                                                                     Memorandum
Date	       APR    I 19
From       J. Michael Hudson
           Acting Administra
Subject	
           OIG Draft Repori: " Medicaid Credit Balances in Nursing Facility Patient Accounts
           (OEI- 07- 90- 00911)
           Inspector General
           Offce of the Secretary
              We have reviewed the above-referenced report which summarizes the results
           OIG' s review of credit balances in patient accounts at nursing faci1ti s (NF). Based
           on the review, OIG projects that as much as $32 millon ($18 milion Federal share)
           could be outstanding in NF credit balance accounts.
               We agree with the majority of OIG' s recommendations. However , we are
           concerned that the sampling methodology used by OIG has not produced a reliable
           estimate of total NF credit balances. We believe a 5 State , 49 facilty sample of
           NFs does not accurately retlect national NF credit balances. It also does nOt
           capture NF differences across the States (e. , number of individuals served) as the
           report assumes all conditions are the same across other States. Therefore , we are
           requesting that OIG descnoe both the methodology and the actuarial projections
           used to generalize the findings from sampled NFs to all NFs in the State and
           nationally. Our detailed comments are attached.
              Thank you for the opportunity to comment on this draft report. Please advise
           us whether you agree with our position on the report s recommendations at your
           earliest convenience.
           Attachment
                                                                       - us cnvFR"'MENT P'IINT:S:; CFFICE; '!S2   -522- 060/51112
           Comments of the Health Care            Financin(! Administration
                   on OIG' s Draft Report: " Medicaid Credit Balances
                         in Nursin(! Facilitv Patient Accounts
                                     (O EX - 07   - 90- 009
 OIG Recommendation
HCF A should encourage State Medicaid agencies to take action to adjust credit
balances.
HCFA Resuonse
We concur with this recommendation. In a memorandum to all HCFA regional
offices (ROs) dated February 18, we directed Medicaid State agencies to identify
and adjust nursing facility (NF) credit balance            accounts on a continuing
                                                                       basis.
Where provider-maintained credit balances are held in interim                 or suspense accounts
action should be taken to adjust these credit balances and other properly identified
credit balances. However, the mere presence of a credit balance does not
necessarily indicate there is an
                              overpayment requiring the return of Federal financial
participation by the State. Reimbursement policies of the States and the accounting
practices of individual providers   determine the extent of the credit balance problem
in any particular State. We are requesting that OIG provide the reasons why the
providers surveyed did not remit the credit balances or notify the State Medicaid
agencies of their existence. If this information were provided in the final report , it
would assist us in implementing the necessary corrective action.
OIG Recommendation
HCF A should require    State Medicaid agencies to timely process adjustment of
credit balances.
HCFA Response
We concur. We issued a memorandum to the ROs on February 18 to direct
Medicaid State Agencies to adhere to the requirements outlined in section 9512 of
the Consolidated Omnibus Budget      Reconcilation Act. This section requires States
to adjust any outstanding Medicaid credit balances within 60 days after notification
by the NF that a credit balance exists.
Page 2

OIG Recommendation
HCF A should work with State Medicaid agencies to encourage the awareness of
program providers to timely identify and report credit balances.
HCF A ResDonse
On September 29 ,   1988 ,   we issued a Financial Management Review Guide for
provider-maintained credit balances in Medicaid. This guide- explores third party
liabilty, overpayment , and cost-reimbursement policy affecting this issue and
provides procedures to the ROs for conducting these reviews.
As part of the State Performance Evaluation and Comprehensive Test of
Reimbursement Under Medicaid program , we monitor the collection efforts of the
States in recovering known Medicaid credit balances. In the past , we have placed
the emphasis on hospitals. However, in planning the fiscal year (FY) 1993 tinancial
management reviews , we wiI consider expanding our reviews of provider-
maintained credit balances to include NFs as weIl as hospitals if circumstances and
resources warrant such expansion.

We disagree with OIG' s comment that HCFA consider        assessing interest on the
Federal share of credit balances not reported within a    reasonable time.   E'Xcept for
certain exceptions not applicable here , HCF A is limited by statute in assessing
interest against Medicaid State agencies. We assess interest only if a State agency
elects to retain funds in dispute as a result of a formal disallowance and the State
loses its appeal before the Departmental Appeals Board (section 1903(d)(5) of the
Social Security Act and 42 CFR 433. 38). If the NFs were to earn interest on the
Federal share of credit balances , then the State Agency must return the Federal
share of interest earned in addition to the Federal share of the credit balances.
The report does not identity the existence of interest- bearing accounts. In addition,
the smaI1 amount of dollars involved is not signifcant enough to require a legislative
change to permit the imposition of interest on credit balances.
OIG Recommendation
HCFA should seek legislation     to pena1ize providers which do not timely report
credit balances.
  Page 3

  RCF A Response

  The Medicaid program       is   jointly financed by the Federal and State Governments
  but administered by the States. RCFA' s relationship is with the State , not with
  individual providers. Consequently, we believe it would be inappropriate to
  consider this recommendation during the formulation of our legislative development
  program.
  General Comments
 We agree that the findings in this report indicate a need to address the deficiencies
 in the population which was sampled , but we have some reservtions with regard to
 the validity of the actuarial projections. Since we are unable to verify OIG'
 statistical projections , and since the actual number of credit balances discovered and
 the original amount for each is relatively small in dollar value, we believe OIG'
 national projection ($20.   6 milion) of existing credit balances may be overstated.
 The attached HCF A chart ilustrates the relationship between total medical
 assistance payments made to NFs for FY 1990 and the credit balance amounts
 reponed untimely. According to our calculations , OIG figures for the average
 amount per credit balance represent approximately one patient-week claim per
 facilty. As a result , it appears that the comparisons and projections shown in the
 report may be overestimated ,   and the conclusion reached may be questionable.
 Appendix C indicates that States have made some adjustments due to credit
 balances. However, the estimates of overpayments in the report were not offset by
 State adjustments that were made. We recommend that the report include
 estimates of statewide and national adjustments to facilty payments for credit
 balances. Further , we recommend this estimate be used to offset the estimated
 statewide and national credit balance projections. Also , the report does not address
 the extent to which the Secretary has      reduced State grant awards .to   adjust for the
 Federal share of overpayments. We recommend the report include a             discussion of
 this additional factor.
 Technical Comment
 The report does not cite the Medicaid       statutory requirements that provide   for NF
  payment and require the Secretary to adjust State payments to account for
  overpayments. This Medicaid report references the Medicare statute. The correct
  Medicaid cites are sections 1903(a)(13)(A) of the Social Security Act for Medicaid
  payment to NFs and 1903( d) for payments to States and adjustments to such
. payments.
 Attachment
    ..-                           --,"-' - ,,_ :. -           ..........
................................................................
          ......... ..... ............................... .....     ....
                                                               --- ---   ..................
                                                                              ,",-
                                                                                 ................. ................ ...........




Comarison of Credit Balances       Untlme'v Reported with Total Hedlea' Assistance         Pavmnts (federal Share)    . fY 1990

         OIG Draft Report: Hedlcald Credit Balances In Nursing facl'ltv              Patient Accouts


                      Dollar Amt. Credit          Dollar Amt. Credit                 "edlcal Assistance          Percentage
 State                Bal. s not reported         Bal. s not reported                paymnts for NFs
                        within 45 days            after 1         yr.   period       in millions                   Total *


                       $10 029                              224                        1610.                         O. OOOX

                     . $34   452                   $22 665                             $354.                           000"
                        $11, 648                   $16 534                             $111.                         o. OOOX

                        $12, 043                     S2, 491                           $555.                           OOOX

                        $12, 448                            961                        $301.                           OOOX


         *Applles to 45-day and   yr figures, separately and taken together.

         Note that the credit balances reported by the OIG are less than 1/1000X

         of the total medical assistance paymnts for each State , and approximate zero.

